No. 19-1131
IN THE

Supreme Court of the United States
_________
ACTAVIS LABORATORIES, FL, INC.,
Petitioner,
v.
NALPROPION PHARMACEUTICALS LLC
Respondent.
CERTIFICATE OF SERVICE
I, Matthew S. Hellman, hereby certify that I am a member of the Bar of this
Court, and that I have this 15th day of April 2020, caused three copies of the Brief of The
Association for Accessible Medicines as Amicus Curiae in Support of Petitioner to be
served via overnight mail and an electronic version of the document to be transmitted
via the Court’s electronic filing system to:
William McGinley Jay
Goodwin Procter, LLP
1900 N Street, N.W.
Washington, DC 20036
(202) 346-4190
WJay@goodwinlaw.com

Dominick A. Conde
Venable LLP
1290 Avenues of the Americas
New York, NY 10104
(212) 218-2204
dconde@venable.com

Counsel for Actavis Laboratories
FL, Inc.

Counsel for Nalpropion Pharmaceuticals
LLC

/s/ Matthew S. Hellman
Matthew S. Hellman

